<html>
<title> - AFTER THE WITHDRAWAL: THE WAY FORWARD IN AFGHANISTAN AND PAKISTAN (PART III)</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





AFTER THE WITHDRAWAL: THE WAY FORWARD IN AFGHANISTAN AND PAKISTAN (PART 
                                  III)

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2014

                               __________

                           Serial No. 113-233

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-845 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
SEAN DUFFY, Wisconsin                GRACE MENG, New York
CURT CLAWSON, Florida                LOIS FRANKEL, Florida

                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
CURT CLAWSON, Florida                WILLIAM KEATING, Massachusetts

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Jarret Blanc, Deputy Special Representative for 
  Afghanistan and Pakistan, U.S. Department of State.............     8
The Honorable Donald L. Sampler, Assistant to the Administrator, 
  Office of Afghanistan and Pakistan Affairs, U.S. Agency for 
  International Development......................................    19
Mr. James Soiles, Deputy Chief of Operations, Office of Global 
  Enforcement, Drug Enforcement Administration, U.S. Department 
  of Justice.....................................................    33

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Jarret Blanc: Prepared statement...................    11
The Honorable Donald L. Sampler: Prepared statement..............    21
Mr. James Soiles: Prepared statement.............................    35

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    68

 
                     AFTER THE WITHDRAWAL: THE WAY
                  FORWARD IN AFGHANISTAN AND PAKISTAN
                               (PART III)

                              ----------                              


                      WEDNESDAY, DECEMBER 10, 2014

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2 o'clock 
p.m., in room 2167, Rayburn House Office Building, Hon. Ileana 
Ros-Lehtinen (chairman of the Subcommittee on the Middle East 
and North Africa) presiding.
    Ms. Ros-Lehtinen. This joint subcommittee hearing will come 
to order.
    After recognizing myself, Chairman Chabot, Ranking Member 
Deutch for 5 minutes each for our opening statements, I will 
then recognize any other member seeking recognition for 1 
minute. I know that we will have votes, but we hope to get 
through some of this.
    We will then hear from our witnesses. Thank you, gentleman, 
and without objection the witnesses' prepared statements will 
be made a part of the record and members may have 5 days to 
insert statements and questions for the record subject to the 
length limitation in the rules.
    I see Mr. Delaney has joined us, and I ask unanimous 
consent to allow Congressman Delaney to question the witnesses 
and participate in the hearing after all the members of the 
committee have had the chance to ask their questions. Welcome.
    The chair now recognizes herself for 5 minutes.
    This is the third and final hearing this session in a 
series of hearings these two subcommittees have had aimed at 
examining the way forward in Afghanistan and Pakistan after the 
U.S. withdrawal.
    In addition, the Middle East and North Africa subcommittee 
has held hearings on how our counternarcotics efforts will be 
impacted by the withdrawal and our relief and reconstruction 
efforts in Afghanistan and what needs to be done to address the 
waste, the fraud, the abuse that the Special Investigator 
General for Afghanistan Reconstruction, SIGAR, and the U.S. 
Government Accountability Office, GAO, have found over the 
years.
    As of Monday, the U.S. and NATO coalition have officially 
closed their Afghanistan combat command, and we now have 
transition from military to a civilian-led presence. A maximum 
10,800 U.S. troops will remain in Afghanistan for the first 3 
months of 2015, and with that number dropping to 5,500 by the 
end of next year, and down to just a few hundred by the end of 
2016.
    But we must ask, has the administration made the decision 
to withdraw from Afghanistan by the end of 2016 based on a 
political decision or a strategic decision, and are we leaving 
the security of Afghanistan and our own national interests in 
the hands of a capable, trustworthy government and security 
forces? As we take a back seat to the Afghan National Security 
Forces and leave in its hands the fate of Afghanistan's 
security, we have many reasons for concerns.
    This past year the security forces taking the lead and 
conducting many of its own operations, we witnessed the 
bloodiest year in Afghanistan since 2011 as the security forces 
suffered over 5,000 casualties. U.S. military leaders in 
Afghanistan, including the outgoing top international 
commander, Lieutenant General Joseph Anderson, have called this 
casualty rate and the rate of desertion in the security forces 
unsustainable. And as the U.S. began its transition out of the 
lead last year, the Taliban and an abundance of other terrorist 
groups and factions across the country have stepped up their 
attacks, and the rate of attacks are only likely to increase 
now that they know that the U.S. and our allies have ended our 
combat operations.
    But terrorists inside Afghanistan's borders are not its 
only challenge. Pakistan continues to harbor and host 
insurgents and other extremists in the Afghan border regions. 
Making matters worse, Pakistan's intelligence service is known 
to cooperate with the Taliban as it works to undermine 
Afghanistan's stability.
    Even more concerning, Pakistan's nuclear weapons stockpile 
is reportedly growing faster than any other in the world and is 
notoriously insecure.
    Security concerns with Pakistan are not only helped--are 
also not helped when the Afghan Government cannot form a 
cabinet, including key positions like Defense Minister.
    A weak and corrupt government combined with incapable 
security forces does not indicate a positive path forward.
    Another threat that gets constantly ignored is 
counternarcotics. Opium cultivation and production again 
increased sharply this year. Afghanistan is responsible for 
over 90 percent of the world's opium supply. This is an 
estimated $3 billion industry that generates immense profits, 
finances terrorism in and outside of Afghanistan, and feeds the 
rampant corruption that continues to plague its government.
    As we approach this new phase in Afghanistan, we must be 
honest with ourselves and the American people. Even though the 
U.S. has closed its combat command, President Obama has 
reportedly changed the rules of engagement so that all 
remaining U.S. troops will be allowed to carry out combat 
missions instead of just training and advising.
    Combat aircraft drones will now be allowed to provide air 
support. President Ghani is pleading with the administration 
for additional support, for additional troops, for additional 
funds, desperate to ensure that his country does not become 
another Iraq.
    The administration likes to pretend that Iraq and 
Afghanistan are different, or at least as Secretary Hagel 
claimed yesterday, that the differences outweigh the 
similarities. But Secretary Hagel and the administration cannot 
hide from the facts. Since the withdrawal of U.S. Troops from 
Iraq in 2011, we have seen the brutal terrorist group ISIL take 
over large portions of both Iraq and Syria, displace millions 
of people, leave thousands dead, and threaten the interests of 
both the U.S. and every ally in the region.
    The fact is that U.S. troops have returned to Iraq, and 
although we continue to lack a comprehensive or coherent 
strategy there, the stakes are even higher in Afghanistan. If 
we do not leave behind a stable strong Afghan Government with 
capable security forces, the Taliban will not hesitate to 
reclaim its lost territory and quickly establish another safe 
haven for terrorists to thrive.
    The United States has paid too much in blood and treasure 
to allow this to happen. We owe it to our brave men and women 
who have sacrificed everything to protect our values and way of 
life, and to whom we are forever indebted, we owe it to heroes 
like Christian Guzman Torres, a Marine Corporal from my 
Congressional district who gave his life in the name of freedom 
and democracy and whose memory and legacy will live on forever 
at a post office that the Congressional delegation named in his 
honor in South Dade in Princeton, Florida.
    We owe it to all of those who made the ultimate sacrifice 
to ensure that we do not let the gains we have made slip away, 
and that we do not allow the Taliban to re-establish itself and 
further destabilize the region.
    I now turn to my ranking member, my good friend, Mr. 
Deutch.
    Mr. Deutch. Thank you, Chair Ros-Lehtinen and Chairman 
Chabot for calling today's hearing.
    I would like to take a moment to recognize the outstanding 
work of one of our colleagues, a ranking member and former 
chairman of the Asia and Pacific subcommittee, Eni 
Faleomavaega. We are thankful for his years of service to this 
country and his leadership in this critical area of foreign 
policy.
    This is our third hearing examining the future of U.S. 
policy toward Afghanistan and Pakistan. The hearing comes on 
the heels of the administration's announcement that it will 
leave an additional--it will leave 1,000 troops in Afghanistan 
to conduct operations against the Taliban and al-Qaeda linked 
targets.
    As we look forward to the beginning of Operation Resolute 
Support, focused on training and advising and assisting, we are 
reminded that for a decade we have been focused on destroying 
al-Qaeda, building a secured and civil society capacity of the 
Afghan Government with the goal of turning over responsibility 
for their Nation to the Afghans.
    The questions is have we achieved these goals? We have 
effectively dismantled al-Qaeda's stronghold in Afghanistan, 
but will the surge in extremism in the neighboring Middle East 
impact Afghanistan.
    We have turned security control of the country over to the 
Afghan security forces, yet there continue to be high rates of 
desertion. Can the Afghan national security force pick up where 
international coalition forces have left off and ensure that 
al-Qaeda cannot regroup and again use Afghanistan as a safe 
haven?
    At our hearings in March and October of last year, we 
focused on Presidential elections as an indicator of progress. 
Would we see free and fair elections lead to a peaceful 
transition of power? I am pleased that President Ghani and 
Chief Executive Officer Abdullah were able to come to a power-
sharing arrangement, but I would also hope that the State 
Department will comment on the recount results so that we might 
be able to look toward assisting Afghanistan in making sure the 
process for future elections is both credible and transparent. 
Electoral reform should be a high priority for Afghanistan 
going forward.
    This past year has been one of transition, and we now look 
to President Ghani's government to articulate its agenda, 
including much needed reforms for both the security and 
civilian sectors in a timeline in which he would like these 
reforms to move. Such a timeline would send a strong signal to 
Afghanistan's international partners that the President means 
business and is willing to hold himself accountable.
    New leadership brings renewed hope of addressing 
longstanding issues of corruption and patronage. I am 
encouraged by some of the positive steps President Ghani has 
taken in the 10 weeks he has been in office, including the 
signing of the bilateral security agreement, but at the same 
time, we have challenges remain. One looming is how this new 
government can engage with the Taliban.
    U.S. support and assistance will continue to be a key 
component of our engagement with Afghanistan, but as our 
presence decreases, we have got to focus greater attention on 
how we will continue to monitor this assistance. How can we 
ensure that years of training Afghan security forces and civil 
society will result in stability and productive governing?
    As Secretary Kerry noted last week, the U.S. will have 
provided $8 billion of economic assistance to Afghanistan 
between 2012 and 2015, but what happens when the assistance 
from the outside slows? How will the new government create an 
economy that can sustain itself without such levels of 
international assistance? What will be the drivers of Afghan 
economic growth going forward?
    And I would like to take a moment to commend the State 
Department, including the Special Representatives Office and 
the Bureau of South and Central Asian Affairs for its work on 
that CASA-1000 project, a joint energy initiative that connects 
energy resources from the Kyrgyz Republic in Tajikistan with 
Afghanistan and Pakistan.
    And the reason that we do these hearings jointly is because 
it is near impossible to address the challenges in Afghanistan 
and Pakistan, in many instances, in isolation from the rest of 
South Asia. It might be time for the State Department to follow 
this cue and realign its Bureau of South and Central Asian 
affairs to better reflect this reality.
    Many of us continue to have longstanding concerns over the 
ability of insurgents to operate in Pakistan and cross the 
border into Afghanistan. I have been encouraged by Pakistan's 
military operations in North Waziristan. Even the most 
skeptical among us have to acknowledge that it has disrupted 
operations emanating from the North Waziristan agency, 
especially for the Pakistani Taliban.
    At the same time, while progress has been made in 
disrupting the Haqqani networks's operations in the tribal 
areas. Both of these designated--both the Haqqani network and 
Lashkar-e-Taiba are responsible for the deaths of Americans. 
The question is can Pakistan rid its country of terrorism 
without going after terrorists wholesale? And despite the 
mistrust and tensions, we need cooperation from Pakistani 
security services as well as strong communication with 
Pakistan's civilian leadership.
    The Congress authorized $7.5 billion via the Kerry-Lugar-
Berman bill to assist in strengthening Pakistan's civilian 
institutions, so I am concerned about the message sent to the 
people of Pakistan and Pakistan's civilian leadership when 
Secretary Kerry meets with Pakistan's chief of staff, Mr. 
Blanc, and I hope that you today will be able to shed some 
light as to who really is in charge of Pakistan's foreign 
policy, and particularly its policy toward Afghanistan.
    Finally, I would just say that, as I said previously, there 
is too much at stake for us to just simply turn our backs on 
these critical relationships. Continuing engagement in a 
supporting role in Afghanistan is critical to ensuring terror 
networks can't re-establish roots, and I look forward to 
hearing from the witnesses today as to how our policy in both 
places will address the challenges of these relationships.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And if you will excuse us, our subcommittees will suspend 
while we vote, and then when we come back, we will have Mr. 
Chabot chair, and he will give his opening statements.
    We will recognize our members for their opening statements 
and then introduce our witnesses, and with that, subcommittee--
--
    [Recess.]
    Mr. Chabot [presiding]. The subcommittees will come back to 
order.
    I want to again thank our witnesses for being here, and who 
that are in attendance this afternoon. I want to thank the 
chair for calling this important joint hearing between the 
subcommittee on the Middle East and North Africa and the 
subcommittee on Asia and the Pacific.
    I am please to join her efforts to discuss the current 
situation in the Afghanistan/Pakistan region and the United 
States' critically important role in securing Afghanistan's 
future stability during the next few months.
    Afghanistan has seen many changes this year both promising 
and, unfortunately, worrying in many instances as well.
    On the positive end of things, the bilateral security 
agreement was finally signed in September, which I am hopeful 
will both lay out and secure the U.S. role in the post-2014 
Afghanistan.
    Also somewhat encouraging is the relative clarity we have 
of the U.S. presence in Afghanistan, as least for the next 
couple of years. The last time we examined the situation in 
Afghanistan back in October of last year, that picture was not 
so clear.
    Today, we know that Afghan security forces hold primary 
security responsibility in the country, while the U.S. 
maintains a force of 20,000 for the time being. That number 
will decrease to 9,800 next year, then further decrease to 
4,900 in 2016. At least that is what we think.
    But even with clarity on the numbers, I am concerned about 
future stability there because Afghan forces will undoubtedly 
need continued support. The plan for an eventual U.S. Military 
exit from Afghanistan after 2016 is troubling because I don't 
believe that Afghan security forces will be able to secure 
Afghanistan if left on their own, at least not in that time 
frame.
    Events in Iraq this year depicted one such scenario. ISIL 
captured Mosul and Iraqi security forces collapsed. We can't 
afford to let this happen in Afghanistan after so many years of 
investment and sacrifice. In fact, I believe General Campbell's 
statement where he expressed his confidence that ``Afghan 
forces have the capability to withstand the fight internally'' 
is premature.
    With the ISIL threat in the region spreading its talons 
east, we have no way of knowing what the Taliban insurgency in 
Afghanistan will look like in 2 years time. With this in mind, 
it is prudent for us to keep the option of a bigger post-2016 
U.S. And NATO force presence on the table.
    It is widely acknowledged that stability in Afghanistan 
necessitates close engagement and cooperation with Pakistan. 
However, Pakistan's sustained tolerance and support of Afghan 
Taliban forces in Qatar and the federally-administered tribal 
areas means a peaceful, stable, independent, and united 
Afghanistan is in the distant future.
    Despite some advances in the U.S./Pakistan relationship and 
the Pakistani military's launch of a major offensive against 
Islamist terrorist groups in the federally-administered tribal 
areas, the end results of these efforts are not certain.
    Limited capacity, rampant corruption, distrust, 
disorganization, and divergent security interests between 
various sectors, both civilian and military, make promises from 
Islamabad unreliable, if history tells us anything. In fact, 
the political protests in August aptly illustrate the case in 
point. Prime Minister Sharif's control over the military is not 
strong. But the military's influence over Pakistan's foreign 
and national security policies is rather solid. I urge the 
administration to exhibit caution.
    Pakistan's ongoing support for sectarian extremist groups 
to expurgate Indian influence in Afghanistan will not end well 
if the current trend continues. This path will only be to the 
detriment of the region and U.S. security and foreign policy 
interests.
    I also continue to be concerned about Pakistan's ongoing 
persecution of religious minorities. Pakistan is ranked among 
the most religiously intolerant countries in the world, and 
Prime Minister's Sharif's Government continues to tolerate the 
oppression of Christians, Hindus, Shiites and Hamotzis, among 
many others. However, the State Department has yet to designate 
Pakistan a country of particular concern for its violations of 
religious freedom.
    Between 2012 and 2013 there were over 200 attacks among 
religious groups, and 1,800 casualties resulting from religion-
related violence. The highest rates in the world. And just over 
a month ago on November 4th, two young Christians were 
murdered--burned alive--accused of blasphemy by a Muslim mob of 
4,000 people. One of them was a pregnant mother of four. We 
cannot continue to ignore this horrific behavior and the plight 
of these groups due to discriminatory laws, forced conversions, 
terror attacks and blasphemy arrests. Ongoing religious 
persecution in Pakistan and its government's paltry efforts to 
recant its support of Islamist extremist groups makes it 
increasingly difficult, I believe, to justify the 
administration's billions of dollars worth of aid to Pakistan.
    I hope our witnesses will discuss what the administration 
is doing to support religious minorities in Pakistan and demand 
that the Sharif Government ensure the human rights of 
minorities in that country.
    I want to again thank Chairman Ros-Lehtinen for calling 
this hearing. I look forward to hearing testimony from our 
distinguished witnesses today.
    And I would also like to associate myself with the remarks 
made by the gentleman from Florida, Mr. Deutch, relative to Eni 
Faleomavaega who I have had the honor to lead the subcommittee 
with for the past 2 years. Eni is just a tremendous individual. 
He served our country in Vietnam, and we are really going to 
miss seeing him. So we wish him only the best in the future.
    And if there are any other members whowould like to make 
open statements, I believe Mr. Bera would like to make an 
opening statement. So the gentleman is recognized for 1 minute.
    Mr. Bera. Thank you, Chairman Chabot.
    About 1\1/2\ years ago I had a chance to visit Afghanistan 
with Chairman Ros-Lehtinen, and at that juncture there was 
uncertainty. You know, we were in the midst of negotiating a 
bilateral security agreement. Afghanistan was going to undergo 
their elections and so forth, and while everything wasn't 
smooth from that point to where we are today, at least there is 
a little bit more certainty at this juncture.
    And at that time too, real questions came up and concerns 
from my perspective as we start to draw down the economic 
impact on Afghanistan. There is no way to replace the presence 
of our troops there in terms of what it means to the Afghan 
economy, and in conversations with the--and in government, they 
have obviously made some significant investments there.
    You know, when I think about Afghanistan and South Asia in 
general, it is this intricate web between Afghanistan, Pakistan 
and India, and I do look forward to hearing the comments of the 
witnesses on how we continue some of that economic investment 
that Afghanistan will need and how we move forward from here.
    Thank you, Chairman.
    Mr. Chabot. Thank you very much.
    And believing that no other members would like to make an 
opening statement, I would like to at this point introduce our 
panel for this afternoon.
    First, I am very pleased to welcome the honorable Jarrett 
Blanc who serves as Deputy Special Representative for 
Afghanistan and Pakistan at the Department of State. Prior to 
joining the State Department, he was the senior policy analyst 
for multi-lateral affairs at the Open Society Institute. He has 
worked for the United Nations and has managed governance 
operations in conflict and post-conflict areas such as 
Afghanistan, Kosovo, Lebanon and Nepal.
    We welcome you here this afternoon.
    Our next witness, we would like to welcome back the 
honorable Donald L. Sampler who is Assistant to the 
Administrator in the Office of Afghanistan and Pakistan Affairs 
at USAID. Mr. Sampler previously served as senior deputy 
assistant to the administrator in the OAPA. He has lived in 
Kabul for several years and has traveled to Afghanistan, 
Pakistan over 60 times since 2001.
    And we welcome you here this afternoon, Mr. Sampler.
    And our last but certainly not least witness this 
afternoon, we are pleased to welcome Mr. James Soiles. Mr. 
Soiles has served with the DEA since 1983, rising through the 
ranks until reaching the current duties as Deputy Chief of 
Operations in the Office of Global Enforcement for the Drug 
Enforcement Administration. In the past, he has served as the 
DEA section chief of Europe, Asia, Africa, Middle East, and 
Canada section overseeing operations in 125 countries.
    And we, again, want to welcome all three of you here this 
afternoon. You are probably familiar with the committee rules. 
You will each have 5 minutes to give your testimony. We have a 
lighting system. The yellow light will let you know that you 
have 1 minute to wrap up, the red light will come on, and we 
would ask that you cease your testimony as close to that point 
as possible. Give you a little bit of leeway, but not a whole 
lot, so we would ask you to try to stay within that if at all 
possible, and then we will follow up with questions.
    So we will begin with you, Mr. Blanc. You are recognized 
for 5 minutes.

    STATEMENT OF THE HONORABLE JARRET BLANC, DEPUTY SPECIAL 
REPRESENTATIVE FOR AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF 
                             STATE

    Mr. Blanc. Mr. Chairman, thank you very much for the 
opportunity to appear before you today to discuss Afghanistan 
and Pakistan. With your permission, I will briefly summarize my 
remarks for the record.
    Mr. Chabot. Without objection, the full report will be 
included in the record.
    You might want to pull the mike, if you can, a little 
closer there, just so everybody in the room can hear you.
    Mr. Blanc. I will pull myself closer.
    Mr. Chabot. Thank you.
    Mr. Blanc. Please allow me to begin by thanking the members 
of the subcommittee for your continued support for our mission 
in Afghanistan and Pakistan, and also to thank the thousands of 
Americans, military personnel, diplomats and assistants, 
professionals who have and continue to serve in Afghanistan and 
Pakistan.
    The American people have been generous, steadfast and brave 
in their support for this region. I would like to particularly 
note the service of Ambassador Jim Cunningham who has finished 
his term as Ambassador of the United States to Afghanistan and 
to welcome the confirmation by the Senate last night of 
Ambassador Michael McKinley.
    Starting with Afghanistan, it is important to remember why 
we are so deeply involved in that country today. It was in 
Afghanistan that the attacks of September 11, 2001 were 
planned, and we remain there because we understand the 
importance of ensuring that Afghan soil not again be used to 
launch attacks against us.
    As part of a military coalition of more than 50 Nations, we 
have helped make the world, Afghanistan, and the region more 
secure. We should also be proud that we have helped the 
Government of Afghanistan build the capacity and start to build 
the capacity to provide security, education, and jobs for its 
own people moving forward.
    Today's hearing is timely. Having long talked about 2014 as 
the critical year of transition, it is appropriate now to talk 
about the way ahead as the year draws to a close. Politically, 
Dr. Ashraf Ghani and Dr. Abdullah Abdullah have forged a 
political compromise amid an electoral process that, while 
imperfect, honored the participation of millions of Afghans and 
led to the first peaceful and democratic transfer of power in 
Afghanistan's history.
    All eyes are now on them to deliver on the promises of 
security, better governance, accountability, women's rights and 
realizable sustainable development goals.
    The media have focused on the challenge of the government 
naming its new ministers. We should not allow this important 
issue to distract us from the impressive start that the 
government has already made in actually governing on issues 
ranging from corruption to security. And I would also note that 
we hope that Dr. Ghani and Dr. Abdullah will soon have an 
opportunity to speak to you directly about their priorities and 
vision of the way forward.
    On security, the United States combat mission with come to 
a close this year, and the International Security Assistance 
Force will be replaced with a more limited international 
mission to train, advise, and assist the Afghan National 
Security Forces.
    To a large extent, though, Afghanistan's security 
transition has already taken place. In June 2013, the ANSF took 
responsibility for security throughout the country, and its 
performance, while despite the violent attacks of the Taliban 
and other insurgents, has been impressive so far.
    I would also note as you did in your opening that the BSA 
has been signed and ratified and just today we have been 
informed that the final formality is the Afghan legal system 
has been completed so that it can come into force on January 
1st.
    Afghanistan, of course, faces continued economic 
challenges, but at the London Conference on Afghanistan last 
week, the international community and the Afghan Government 
renewed our set of mutual commitments to continuing support 
that country as it charts its own path to greater 
sustainability.
    I would also note that Afghanistan's economy and security 
are inexorably tied to the broader region which remains one of 
the world's least integrated, and as the ranking member noted, 
it is a welcome sign of progress that earlier this month the 
region finalized negotiations on key agreements for the CASA-
1000 electricity transmission line project.
    Perhaps most importantly in this context, there is real 
potential for improving Afghan/Pakistan relations.
    Turning to Pakistan, we have a bilateral relationship that 
is full of both opportunity and challenge. The bottom line is 
that our relationship is vital to the national security of the 
United States. We have many shared long-term interests in both 
economic and security cooperation, and our policy of sustained 
engagement to date has yielded tangible, if incremental, 
results.
    Due to the importance of our relationship, we have invested 
in a substantial civilian assistance program in Pakistan which 
complements our robust security assistance program.
    It is easy to criticize imperfect progress in Pakistan. 
However, it is also easy to overlook its successes. In May of 
last year, Pakistan made its first ever democratic transition 
from one civilian government to another. It has made progress 
in stabilizing economy and in implementing reforms, but 
obviously it has further go to realize its economic potential.
    Pakistan's military operations in North Waziristan have 
disrupted militant activities in the tribal areas and resulted 
in important seizures of weapons and IED materials. This 
operation is the latest and most extensive phase of Pakistan's 
effort to extend greater government control throughout its 
territory.
    We recognize that Pakistan has suffered greatly at the 
hands of terrorists and its sacrifices are laudable.
    It is also clear that their job is not done. Militant 
groups such as the Pakistani and Afghan Taliban, including the 
Haqqani network, continue to pose a threat to Pakistan, its 
neighbors, and to the United States. It is vital that these 
groups not be allowed to find their footing, and we will hold 
Pakistani leaders to their commitments in this regard.
    Our constructive engagement with Pakistan has garnered 
results, and it will be continued to be an important component 
of our national security strategy going forward.
    And with that, I thank you and look forward to your 
questions.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Blanc follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Chabot. Mr. Sampler, you are recognized for 5 minutes.

STATEMENT OF THE HONORABLE DONALD L. SAMPLER, ASSISTANT TO THE 
ADMINISTRATOR, OFFICE OF AFGHANISTAN AND PAKISTAN AFFAIRS, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Sampler. Mr. Chairman, members, thank you very much for 
the opportunity to testify today about USAID's civilian 
assistance in Afghanistan and Pakistan.
    I am proud to represent USAID at this pivotal time in the 
history of our engagement with these two countries.
    Today, as a matter of fact, in Oslo, Norway, Malala 
Yousafzai was awarded a Nobel Prize for her remarkable courage 
and advocacy on behalf of education for girls in Pakistan and 
around the world. Her recognition is made even more notable 
because she shares the Prize with an Indian advocate for the 
rights of children, Mr. Kailash Satyarthi. As she herself said 
as she accepted the award, ``I am glad that we can stand 
together and show the world that an Indian and a Pakistani can 
stand united in Peace and stand together to work for children's 
rights.''
    In Afghanistan, as the international military forces 
transition away from direct combat, and as their numbers and 
their political and economic impact diminishes, the roles of 
civilian agencies become increasingly more important, and 
rightly so.
    I am clearly aware of our commitment in and to Afghanistan. 
A week from today marks the 13th anniversary of the reopening 
of the U.S. Embassy in Kabul. At that ceremony in 2001, Jim 
Dobbins, an outstanding diplomat and a personal role model for 
me, noted that with the reopening of the United States mission 
in Kabul today, America has resumed its diplomatic, economic, 
and political engagement with Afghanistan. He continued and 
finished by saying, ``We are here and we are here to stay.''
    I first worked in Afghanistan in 2002 and played a role in 
the emergency and constitutional Loya Jirgas that constituted 
the founding of the new Government of Afghanistan. I have been 
more or less engaged in supporting U.S. efforts there ever 
since. I have worked with and for USAID, the Departments of 
State and Defense, the U.N. Assistance Mission in Afghanistan, 
a think tank, an NGO, and for-profit, all in support of U.S. 
national interests in Afghanistan and Pakistan.
    But as we enter the holiday period here at home, I am 
reminded that there are over 2,300 soldiers, sailors, airmen, 
and Marines who were killed in Afghanistan, and whose families 
will miss them this holiday season. There have also been over 
400 USAID contractors killed, and over 1,000 of our colleagues 
wounded during this same period of time.
    I have participated in Fallen Hero ceremonies for USAID and 
State Department colleagues who were killed in Afghanistan in 
the line of duty, and just last week met with the family of 
Mike Dempsey, one of my employees killed last year, and I last 
saw his family when I visited Detroit, Michigan for his 
visitation and funeral. So I have firsthand experience in 
pain--I have firsthand experience with the painful consequences 
and costs for the progress we have made in Afghanistan.
    I am also cognizant of the fiscal costs, the treasure that 
we invest in Afghanistan and Pakistan each year. I and my staff 
take very seriously our stewardship of taxpayer resources, and 
we work tirelessly to ensure that these dollars are spent 
appropriately and effectively, and that they support the 
national interest and development goals we have set for 
ourselves.
    In support of our national interests abroad, USAID partners 
to end extreme poverty and support resilient democratic 
societies while advancing U.S. security and prosperity.
    Afghanistan and Pakistan represent a range of development 
challenges, but in both countries, USAID works to implement 
programs that are sensible, sustainable, and developmentally 
sound.
    In Pakistan, we work in five sectors. They are energy, 
economic growth and agriculture, health, education, and 
stabilization. In Afghanistan, our programs range from 
humanitarian assistance to infrastructure, which includes 
energy, health, education, and governance capacity building.
    In both countries, assuring and advancing the gains made by 
women and girls are essential cross-cutting themes of our work, 
as is building the capacity of local partners to ensure 
sustainability.
    As USAID navigates to the 2014 transition and looks to 2015 
and beyond, the agency is committed to making every effort to 
safeguard taxpayer funds and ensure that the remarkable 
development progress made in Afghanistan and in Pakistan is 
maintained and made durable in order to secure our national 
interests in that part of the world.
    It is an honor to share with you today a small glimpse of 
what USAID is doing in that regard, and I look forward to your 
questions.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Sampler follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Chabot. And, Mr. Soiles, you are recognized for 5 
minutes.

  STATEMENT OF MR. JAMES SOILES, DEPUTY CHIEF OF OPERATIONS, 
OFFICE OF GLOBAL ENFORCEMENT, DRUG ENFORCEMENT ADMINISTRATION, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Soiles. Chairman Ros-Lehtinen and Chabot, and 
distinguished members of the subcommittees, on behalf of 
Administrator Leonhart and the Drug Enforcement Administration, 
I appreciate your invitation to testify today regarding DEA's 
counternarcotic strategy and the way forward in Afghanistan and 
Pakistan.
    DEA's core principle is to secure our Nation and protect 
our citizens by relentlessly pursuing our mission of disrupting 
and dismantling major drug trafficking organizations, their 
networks and financial infrastructures, preventing the 
diversion of pharmaceutical controlled substances and listed 
chemicals from legitimate channels, leading the collection and 
dissemination of drug-related information and strengthening the 
strategic partnerships with our domestic and foreign law 
enforcement counterparts and extending the rule of law 
globally.
    A recent report by the Special Inspector General of 
Afghanistan Reconstruction indicated that the United States and 
our allies have all but abandoned our focus on combating 
Afghanistan's drug trade. I can say unequivocally that DEA and 
our partners have not and will not abandon our focus on 
addressing the drugs threats in Afghanistan, Pakistan, or 
anywhere else. In fact, in some ways we have sharpened our 
focus on the threats.
    The United Nations has estimated that the international 
drug trade generates $400 billion per year in illegal revenue, 
making drug trafficking the most lucrative illicit activity by 
far.
    Because drug trafficking is so profitable, terrorist 
organizations are increasingly tapping into the revenue stream. 
The DEA has conservatively linked 22 of the 59 foreign--
designated foreign terrorist organizations to drug trafficking. 
Approximately one quarter of these are based or operate in 
Afghanistan and Pakistan.
    Many of these organizations and other insurgent groups 
operate in or receive drugs or drug-related funding from drugs 
that are produced in or transited through Afghanistan and 
Pakistan.
    Over 80 percent of the world's illicit opiates are produced 
in Afghanistan, and approximately 160 tons of heroin and 80 
tons of opium are smuggled across the Afghan/Pak border every 
year.
    Afghan-produced heroin is primarily destined for world 
markets. Only a small percentage reaches the United States.
    In order to address these challenges, DEA leverages 
existing programs such as our specialized vetted units, our 
Foreign-Deployed Advisory and Support Teams and the Special 
Operations Division to support, mentor, and advise foreign 
counterparts and coordinate, de-conflict, and synchronize 
ongoing investigations.
    Based in large part on DEA training, mentoring and 
assistance, the capacities and capabilities of our counterparts 
in Afghanistan have increased. They can now independently 
conduct drug investigations. In Fiscal Year 2014, they 
initiated and led over 2,600 operations resulting in the arrest 
of over 2,700 individuals, and the seizure of over 109 metric 
tons of drugs.
    Since January 2014, our counterparts in Pakistan seized 
over 960 kilograms of heroin, 25,000 kilograms of opium, and 
52,000 kilograms of hashish.
    DEA's Special Operations Division directly supports ongoing 
investigations throughout the world, including Afghanistan and 
Pakistan. The Bilateral Investigations Unit of the Special 
Operation Division work closely with our office to leverage 
U.S. Extraterritorial authority against the world's most 
significant drug trafficking and narcoterrorist organizations.
    We have successfully used these laws to indict and 
incarcerate several Afghan-based international drug trafficers, 
including Haji Juma Khan, allegedly Afghanistan's largest 
heroin trafficker with ties to the Taliban; Haji Bagcho, one of 
the first defendants ever extradited from Afghanistan to the 
U.S.; and Khan Mohammed, who intended to ship heroin to the 
United States and use his profits to assist the Taliban.
    Thanks to our efforts and those of our partners at the U.S. 
Attorney's Offices in New York and Virginia, all of these 
significant drug traffickers, many with ties to the Taliban, 
faced justice in the United States.
    The reality of being held to account for crimes in the U.S. 
courtroom is a powerful and complimentary tool that must be 
used to the fullest extent possible.
    Due to the immediate and dire consequences of international 
narcoterrorism crimes, DEA does not have the luxury of adopting 
a reactive response to this existing criminal threat. Only a 
proactive investigative response with the prospect of 
incarceration in the U.S. can address the threat posed to U.S. 
national security. Unfortunately, prior to leaving office, 
President Karzai suspended extraditions of indicted individuals 
from Afghanistan to the U.S., therefore foreclosing U.S. 
prosecution.
    President Ghani could send a clear message to the 
international drug traffickers and narcoterrorists that operate 
in Afghanistan by appropriately allowing them to face justice 
in the United States and thereby complying with international 
agreements, enhancing Afghanistan's security and strengthening 
the U.S. national security. Quite simply, a safe Afghanistan 
means a safer U.S.
    Administrator Leonhart and the men and women of the DEA are 
committed to standing with our interagency colleagues and 
domestic and foreign counterparts to build and sustain 
effective counternarcotics programs to protect U.S. national 
security interests around the world.
    Thank you.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Soiles follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Chabot. And members will now have 5 minutes to ask 
questions, and I will begin with myself.
    Mr. Blanc, I will begin with you. The Inter-Services 
Intelligence Directory, ISI, has come under intense scrutiny 
for its alleged ongoing links with and even material support 
for Islamic militant/terrorist groups operating in Pakistan, 
perhaps including the Haqqani network of Afghan insurgents.
    What is your assessment of the security, intelligence and 
political roles played by the ISI? Does that organization play 
a double game with the United States as many assume is the 
case?
    Mr. Blanc. Thank you very much, Mr. Chairman.
    I think that what we have seen most recently in Pakistan 
with the North Waziristan operation is a real disruption of all 
insurgent and militant activity in Pakistan, including the 
Haqqani network.
    Now, that is not to say and it remains the case that 
Afghan-focused militants continue to operate from Pakistani 
territory, and that is to the detriment of Afghan security. It 
is to the detriment of our security. It is to the detriment of 
Pakistan's security.
    The Pakistani authorities, all Pakistani authorities, 
including intelligence authorities, military authorities, 
civilian authorities, have repeatedly said to us that they will 
prevent the reconstitution of these disrupted groups as their 
operations continue and conclude, and it is part of our 
continuing dialogue with Pakistan to make sure that that is the 
case.
    So we are very focused on making sure that the disruption 
that we have seen over the last few months becomes a more 
permanent fact.
    Mr. Chabot. Thank you. That is a nice answer, but I am not 
sure if you answered my question, but I won't press you on 
that.
    Let me turn to you on this, Mr. Soiles. I really believe 
that if the international community does not continue to 
disrupt and dismantle drug trafficking in Afghanistan and 
Pakistan, the economic development, stability, and rule of law 
assistance we have provided there all these years will become 
null and void.
    You mentioned in your testimony that you will continue to 
pursue a collaborative and productive relationship with the 
Pakistani Government to support DEA efforts.
    Can you discuss the state of your agency's relationship 
with the Pakistani Government and the extent of cooperation you 
receive from local law enforcement? Rampant corruption is known 
to be a huge problem in virtually every sector in Pakistan. So 
how does that affect your ability to interdict and shut down 
drug trafficking networks?
    Mr. Soiles. Well, our relationship with Pakistan, as you 
all know, has been prickly, but----
    Mr. Chabot. Has been what?
    Mr. Soiles. Prickly. Difficult.
    Mr. Chabot. Tricky. Okay.
    Mr. Soiles. Yeah. But the DEA has always had a relationship 
with the anti-narcotics force of Pakistan. We have a vetted 
team that we use that we work with.
    Recently we got authorization to open our office in 
Karachi. Of course, as you probably know 45 or 50 percent of 
the heroin produced in Afghanistan comes through Pakistan down 
to Karachi and then out the Makran Coast.
    We are--that is part of our containment program. We have--
we have worked really hard, not only with the Pakistanis, but 
with all Afghanistan's partners to build the capabilities to 
contain the flows going across the Afghan borders.
    The Pakistanis are working hard with us to look at those 
organizations. We are working not only in Afghanistan and 
Pakistan, but in Central Asia, and also in East Africa where a 
lot of this stuff ends up on--on the Makran Coast and go down 
to East Africa and get off, flow into Tanzania and Kenya.
    So we have a presence in these areas. We have vetted teams. 
We have established vetted teams, and we will continue to do 
that. The vetted teams give us an immediate capability to deal 
with the investigations that we need and deal with the problem, 
but it also has a long-term institution-building, capacity-
building capability.
    Mr. Chabot. Thank you.
    I have only got about a minute to ask my question and get a 
response. Let me come back to you, if I can, Mr. Blanc, on a 
different question.
    GAO recommended in 2012 that the State Department direct 
the U.S. mission in Pakistan to enhance its counter-IED 
performance measures to cover the full range of U.S.-assisted 
efforts. I understand that this recommendation remains open.
    Can you explain why there has been so little action on this 
and share with us what steps, if any, the State Department 
plans to take to address these recommendations that would serve 
to benefit U.S. soldiers and our allies in Afghanistan and 
development efforts in Pakistan as well?
    I think we all know that that is one of the most dangerous 
things that we face in both Iraq and Afghanistan, and that is 
IEDs.
    Mr. Blanc. Thank you very much, Mr. Chairman.
    And, actually, there is a report out today from JIEDDO 
because this is the--the counter-IED effort goes across both of 
our missions and a number of military organizations.
    And, if I may, I am just going to refer to some of the 
specifics in the report----
    Mr. Chabot. Okay.
    Mr. Blanc [continuing]. Because, actually, there is some 
good news here.
    So it is assessed that the actions of the Government of 
Pakistan and the Pakistan industry are steadily decreasing the 
amount of HME material necessary for IEDs available to the 
insurgency, increasing the cost of IED components, and forcing 
the insurgency to extend its supply line deeper in Pakistan, 
making it more vulnerable to, essentially, Pakistani efforts.
    Information has become available that insurgent forces are 
having difficulty obtaining the IED precursors that used to be 
more easily available on the market, and the lack of 
availability is a likely link to the voluntary ban on the sales 
of some these materials in Balochistan and Khyber Pakhtunkhwa 
by Pakistan's sole producer of one of the key precursors, 
Pakarab.
    We will--we can submit the rest of this report to you for 
the record. Your staff probably already have it. But where this 
broadly points is that the whole-of-government effort that we 
have undertaken with both Embassies with the Department of 
Defense I think is actually showing results on thecounter-IED 
effort.
    Mr. Chabot. Thank you.
    My time is expired. But if you could make the report 
available to the committee, we would appreciate that, and then 
all members would have access to it. And, as I say, my time is 
expired.
    The gentleman from Rhode Island, Mr. Cicilline, is 
recognized for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman. And thank you for 
holding this important hearing.
    And thank you to the witnesses for being here.
    I would like to begin, Mr. Blanc or Mr. Sampler, when you 
consider the level of funding in foreign assistance that has 
been provided to Afghanistan and the expectation that they will 
continue to rely on foreign assistance for at least the next 
decade, what are the plans that the new Government--this new 
coalition Government has developed, if any, to really begin to 
build an economy in Afghanistan that might ultimately be able 
to actually provide goods and services that the Afghan people 
require? And what is the likely timeline for this--the country 
to wean itself from almost total subsistence from foreign aid?
    Mr. Sampler. I will begin, Congressman. Thank you for the 
question.
    The new Government is still establishing itself. I came 
just this past week from London, where President Ghani and CEO 
Abdullah presented their aspirations. We have the benefit in 
Afghanistan now of having a President who is himself a well-
known international economist of developmental countries.
    Dr. Ghani wrote the book, ``Fixing Failed States,'' which 
literally addresses how to do these things in a very measured 
and predictable and deliberate way. Now, taking his academic 
aspirations and translating them into operational reality is 
the challenge that he faces.
    I will give you a very small example, though, that gives me 
reason for optimism. In Afghanistan, they realized back in 2006 
that they needed to have an electric power utility, not unlike 
Duke Power or Georgia Power, and they created DABS, which is 
the Afghan power utility. At the time, it received subsidies 
from the government of around $50 million a year to become 
functional.
    I am pleased to say that, with USAID support and other 
donor support, DABS is now actually turning a profit. It is 
actually regarded in the region as one of the more well-managed 
power utilities.
    So if Dr. Ghani can identify the kind of talent that he has 
found in DABS and if he can replicate that kind of competence 
in the ministries of Afghanistan, I think there is reason for 
optimism.
    Mr. Cicilline. But do we have--have we developed specific 
measurements and timelines so that we can be certain that these 
kinds of improvements in governance and anti-corruption efforts 
actually happen?
    I mean, is that a condition of our assistance or at least 
an implicit expectation that we are measuring that we have some 
delineated outcomes that we expect over a certain period of 
time?
    Mr. Sampler. At the tactical level, it is. And what I mean 
by that is, in each of the ministries in which we work, we have 
very specific metrics for what we expect that ministry to 
develop.
    You have to remember that 10 years ago they were not a 
literate society; so, it literally began with teaching some of 
these staff to read and to operate computers.
    But in each of the ministries, we make sure that they have 
the prerequisite requirements to manage funds before they do, 
and that is, in effect, building this government and building 
the institutions from the ground up.
    In terms of timelines, that would be irresponsible of me to 
suggest. I think you are right to say it will be measured in 5-
year increments or decades. It will not be quick.
    But President Ghani has said publicly one of his primary 
goals is to build an economy that will allow government 
revenues to grow and allow him to wean his government off of 
international subsidies as quick as----
    Mr. Cicilline. I think what would facilitate that progress 
is for us to be setting those expectations as a condition of 
our support and assistance.
    I think what is irresponsible is for us to continue to 
spend unlimited amounts of money on an effort without some 
clear expectation of what we expect the Afghan people to do.
    And I have been very critical of our failure to really 
demand that the Afghan people take responsibility for their 
governance and their security and really begin to take on those 
responsibilities.
    But I just have a minute left. So I want to turn to you, 
Mr. Soiles, for a moment on the question of the illicit drug 
trade.
    As you said in your testimony, Afghanistan is responsible 
for 90 percent of the world's opium, and despite the fact that 
we have spent $7.8 billion in counternarcotics efforts in 
Afghanistan since 2002, Afghanistan has, in fact, produced an 
all-time high--record-high amount of opium.
    And it really calls into question--if they are going to 
build an economy, it is going to require that there be--it be 
replacing this opium economy, and it doesn't seem like we are 
having great success with record-high production and a huge 
expenditure of American taxpayer dollars.
    What can you recommend that we do differently or better to 
produce better results?
    Mr. Soiles. We are--the Drug Enforcement Administration is 
an investigative agency. We are not eradicators, but 
eradication would be an important issue. But that causes other 
issues that our USAID and our State Department people could--
are more adept at explaining.
    The reality is you got to have--we have to have a 
counternarcotics capability in that country. The reality is, 
when we first went in in 2002--and DEA did go in there in 
2002--there was no one. There was no institution at all.
    And, as a result, we have had to build the institutions 
from ground up, everything, the buildings and--along with our 
interagency partners, because it was--it was State and DOD and 
USAID. It was a real U.S. interagency effort to try to build 
those institutions so they can actually perform the duties that 
they were given.
    We had to establish their legal systems. We had to 
establish the judicial process in Afghanistan. We have done 
that. And it is working. It is working.
    Mr. Cicilline. Except it is not working. I mean, this is 
one of the challenges I think we face when we try to build 
countries and those kinds of institutions. They are producing 
opium at the highest rate that they have ever, and we have 
expended, you know, billions--$7.8 billion since 2002.
    And it just strikes me that it is--I am not assigning blame 
to this, but it strikes me that it demonstrates the futility or 
the almost near impossibility of taking on the responsibility 
of building another country from the ground up, that that 
responsibility ultimately has to rest with the Afghan people.
    And we have now been at it for 13 years, and it calls into 
question how much more lives and Treasury should invest in this 
effort.
    And, with that, I yield back.
    Ms. Ros-Lehtinen [presiding]. Thank you very much, Mr. 
Cicilline.
    And now Mr. DeSantis from Florida.
    Mr. DeSantis. Thank you, Madam Chairwoman.
    The President exchanged five very high-ranking Taliban 
detainees, very lethal terrorists, in exchange for the Bowe 
Bergdahl trade. The assurances were that they would be in Qatar 
and be monitored.
    So what have those detainees been doing in Qatar since they 
have been transferred there?
    Mr. Blanc. Congressman, thank you for the question.
    There are limits, of course, to precisely what I can say in 
this forum. You are exactly right to----
    Mr. DeSantis. Can you say, though, that--without going into 
detail, that you--we are in a situation where we can monitor 
them so that they are not reengaging in terrorist activity?
    Mr. Blanc. Yes, sir.
    Mr. DeSantis. Okay.
    Mr. Blanc. And I would actually like to further add to that 
that the Qataris have been scrupulous in their adherence to the 
terms and conditions of their agreement with us.
    Mr. DeSantis. President Obama has reportedly changed the 
rules of engagement for the remaining U.S. troops in 
Afghanistan so that now troops will be allowed to carry out 
combat missions instead of the initially reported train-and-
advise role.
    What are the rules of engagement for U.S. Troops and 
personnel in Afghanistan.
    Mr. Blanc. Sir, I would defer to the Department of Defense 
to describe the rules of engagement in particular.
    The announcement that you are referring to regards the 
missions of the troops. While it is true that we have--we have 
moved from--or are moving from a combat mission to a train, 
advise, and assist mission, there, of course, have always been 
things the troops are going to be able to do, including 
continued counterterrorism missions in conjunction with the 
Government of Afghanistan, our own force protection 
requirements, and a new thing that the President has announced, 
which is that, in certain extreme situations, we will be able 
to provide support to the Afghan National Security Forces as 
they are conducting their own operations.
    Mr. DeSantis. So if we want to get the actual rules of 
engagement, are those--I understand the DOD is the one that 
promulgates them.
    Are those classified? Do you know?
    Mr. Blanc. Sir, I am sorry. I actually don't know the 
answer to that question.
    Mr. DeSantis. Okay. What is the impact of the 24 elections 
in--2014 elections--excuse me--in India have had on India and 
Pakistan relations, specifically with regard to the conflict in 
Kashmir? And do you think that the 2014 elections has had a 
noticeable effect on India-Pakistan relations?
    Mr. Blanc. Well, sir, I will be careful in what I say about 
India because my colleagues from the Bureau of South and 
Central Asia, which is responsible, are not here with me today.
    What I will say is that the elections in both Pakistan a 
year ago and then in India this year do create a window of 
opportunity with new Governments, both with strong mandates.
    And to some extent, we have seen some hopeful signs from 
both sides, including Prime Minister Modi's invitation for 
Prime Minister Sharif to attend his inauguration, an invitation 
which Prime Minister Sharif took up.
    We would like to see more focused improvement along the 
line of control in other areas of the conflict. We would like 
to see more focus on building some of the trade links which we 
think are essential for both countries and essential for the 
region. But there have been at least some positive indications 
since those two elections.
    Mr. DeSantis. My constituents will say, ``Man, India''--or 
``Pakistan and Afghanistan, what is going on over there? Why do 
we even need to be worried about it?''
    And one thing I will always say is, ``Well, Pakistan has 
nuclear weapons and, in a very dangerous part of the world, 
those in the wrong hands could be catastrophic.''
    So what efforts is the administration pursuing to influence 
Pakistan to cooperate on nuclear nonproliferation and security 
in the region?
    Mr. Blanc. Sir, I think you have put your finger exactly on 
it, that it is a complicated relationship with Pakistan, but 
one that for a number of reasons is vital for our national 
security interests.
    And those interests, including nuclear weapons and assets, 
including the safe haven that some militants have found, those 
are the center of our dialogue with Pakistan.
    And so it is what drives every conversation that we have. 
It is what drives the strategic dialogue that the Secretary of 
State has with his counterparts in Pakistan. And that will 
continue to be structuring our engagement with Pakistan moving 
forward.
    Mr. DeSantis. My final question is--I think we have learned 
some lessons in Iraq, well, from the beginning, but 
particularly over the last several years.
    Is the administration looking at Iraq and saying, ``Okay. 
In Afghanistan, if we withdraw too soon, that could create a 
situation in which jihadists will be able to gain more 
territory''?
    You know, we are having to now put more troops back into 
Iraq and we are much more engaged there than we were 2 years 
ago. Is there a similar danger in Afghanistan?
    I know the mission end date has changed a little bit, but I 
still think the President's goal is to really radically 
withdraw. If that happens, are we going to just leave behind 
another Jihadistan?
    Mr. Blanc. Sir, you know, as far as withdrawing lessons 
from different operations, I can only tell you my perspective 
as part of this discussion. And I served in both Afghanistan 
and Iraq for a number of years and have always believed that 
the comparisons drawn between the two countries are misleading 
guides to policymaking, that there are tremendous differences 
between the two countries.
    There differences between the way the politicians in the 
two countries have come together or not come together. There 
are differences in the way that the Afghan----
    Mr. DeSantis. And I agree with that. My time is almost up.
    So I agree with that 100 percent. But what would you say in 
terms of--Is there a danger that, as the U.S. presence wanes, 
that terrorism and jihadist groups are able capitalize on that?
    Mr. Blanc. I think that we need to be very focused on 
filling in the gaps that the Afghan National Security Forces 
still has so that they are able to take responsibility--fuller 
responsibility for security across their country and make sure 
that Afghanistan does not again become an international threat.
    And I believe that we are on track doing exactly that, that 
the Afghan Security Forces, since taking lead responsibility 
across the country in June 2013, have done a good job despite 
very forceful efforts on the Taliban to disrupt them.
    And, actually, I would just like to underline this. I think 
it is often missed. The Afghan National Security Forces took 
lead responsibility across the whole country in June 2013. That 
was really the transition point.
    And the fact that there hasn't been the sort of 
catastrophic effect that some people might have feared I think 
is an indication that the strategy of standing the Afghan 
forces up and helping them fight their own fight is working.
    Mr. DeSantis. I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. DeSantis.
    Dr. Bera is recognized, even though I have the esteemed and 
much revered colleague Mr. Connolly breathing down my neck next 
to me----
    Mr. Connolly. Who once worked in the Senate.
    Ms. Ros-Lehtinen [continuing]. Who once worked in the 
Senate as a staffer.
    Dr. Bera, you are recognized
    Mr. Bera. Well, I appreciate my esteemed colleague from 
Virginia deferring to me.
    The political complexity of South Asia, the political 
complexity of the interrelations between Afghanistan, Pakistan, 
and India, you know, are not easy. You know, when we were there 
1\1/2\ years ago, you know, my impression when we met with 
President Karzai was, in many ways, he did not make it any 
easier, playing one country out against the other.
    Perhaps, Mr. Sampler, with the new administration in 
Afghanistan, have you seen a shift in how Afghanistan is 
interacting both with India and Pakistan and how that 
administration is engaging?
    Mr. Sampler. Yes. Certainly. I will begin and then yield to 
Jarrett from the State Department for the diplomatic level.
    But, you know, India is the fifth largest donor in 
Afghanistan. And in that regard, they have done remarkable 
things for the Afghans, and particularly for Afghan women in 
some cases.
    Allowing Afghan women, for example, to travel out of the 
country is a challenge. But if they are going to a place like 
India, where many of their family and relatives have been 
before, they are allowed to go.
    And so India has taken it upon themselves to train Afghan 
women in some basic life skills and confidence-building skills 
and then in some vocational training skills that allow them to 
work from their homes.
    Similarly, at a more--at a higher level, they have--USAID 
has worked with the Government of India to host a number of 
bilateral business development conferences where Afghan 
businessmen have gone to India.
    Specific to your question, President Ghani has thus far--
and it is very early days--been very adept at talking about the 
importance of a regional approach to solving the problems and 
not two separate bilateral approaches, and I think the steps we 
have seen on the development front have been very sensitive to 
that.
    But I will yield on the diplomatic front to Mr. Blanc.
    Mr. Blanc. I think, you know, Larry has done a terrific job 
of laying out the need for economic integration and the 
critical role that India, in particular, can play in 
Afghanistan in that respect.
    Looking more to the political and the diplomatic issues, it 
is clear that regional diplomacy is one of the President of 
Afghanistan's most important and hardest jobs, and President 
Ghani has really grabbed hold of it in his first 65 or 70 days 
in office.
    He has visited Saudi Arabia. He has visited China. He has 
visited Pakistan. He has welcomed key Pakistani leaders to 
Afghanistan. And I think he has struck a new tone in terms of 
trying to find ways to cooperate bilaterally with these key 
countries, but also as a regional grouping.
    And it is early days yet, obviously. There is a lot of work 
for him to do. There is a lot of reciprocation from these 
partners to do. But I think he has approached it in a very open 
and intelligent way.
    Mr. Bera. I would imagine, as we go into this transition 
phase in 2015, you know, in conversations with Indian multi-
national companies and others that have made significant 
investments in Afghanistan, one of their major concerns 
obviously is the security climate there.
    And, you know, as the ANSF, you know, gains further 
capabilities, I think one thing we can certainly do to continue 
to encourage investment in Afghanistan infrastructure and a 
favorable investment environment is to continue to offer some 
of that--at least security training and security confidence.
    You know, shifting gears to Mr. Soiles, it does--it appears 
to me that the narcotics trade and narcotics trafficking go 
hand in hand with counterterrorism. That would be an accurate 
assessment and----
    Mr. Soiles. Absolutely. The UNODC's recent study suggests 
that 50 percent of the Taliban revenues come from the 
trafficking of narcotics.
    Mr. Bera. So if we are looking at other situations where we 
can kind of--you know, let's take Colombia, for instance, where 
I would imagine we encountered a very similar situation.
    Are there lessons to be learned from how we approached 
Colombia and our engagement there that we can apply to 
Afghanistan?
    Mr. Soiles. Absolutely. But Colombia was a lot more 
progressed as a nation than Afghanistan was. They didn't have 
decades of internal strife. I mean, the whole country was 
devastated because of the internal stuff that was going on in 
Afghanistan. But yes.
    In fact, we used the model of Colombia in a lot of ways to 
see what was needed in order to build the kind of narcotics 
forces of Afghanistan, and we--not only Afghanistan, but in 
some of the neighboring countries, for instance, some of the 
central Asian countries that we are dealing with to try again 
to stem the flow of the narcotics that are going out.
    Mr. Bera. Right. And one last question.
    One of the big successes in Afghanistan, perhaps for you, 
Mr. Sampler, is that we have educated a decade of girls, and 
those are real gains. Yet, one of my concerns is, as we start 
to transition out, how do we hold on to those gains and, you 
know, empower this generation of girls that are now becoming 
women in leadership? And I would be curious about your 
perspective.
    Mr. Sampler. And that is one of the core interests of 
USAID, is making stable and advancing the gains for women and 
girls thus far.
    One of the best metrics for the success we have had in 
educating women and girls over the preceding 12 years is that 
there are now roughly 40,000 girls who have enrolled in 
universities in Afghanistan and others who have enrolled in the 
regions. We have various scholarship programs and various 
incentive programs to keep them engaged.
    There is a tension in Afghanistan, though. Families choose 
to marry their daughters and--not even prematurely, but choose 
to see young women married as opposed to entering professional 
circles. So we are working to create opportunities and set-
asides for women in some of these circles.
    We have, as you may be aware, a $400-million program which 
we are funding to the level of $200 million over 5 years called 
``Promote,'' and it is specifically focused on women from the 
age of 18 to 30 who have taken advantage of at least their 
primary education. We can assist them with secondary education, 
vocational training, and then placement in either the private 
sector, in government, or in civil society.
    So we are looking to seize and make permanent those gains 
to achieve sort of a tipping point that women can't be set back 
from.
    Mr. Bera. Right. Thank you.
    And I will yield back.
    Ms. Ros-Lehtinen. Thank you, Dr. Bera.
    The chair recognizes herself. And I apologize to the 
witnesses if the questions that I am going to be asking have 
been already asked. I was in another--some other few meetings. 
So I thank you. I read your testimony.
    So I'll start with Mr. Blanc.
    In testimony before our Middle East and North Africa 
subcommittee last month, former CIA Director Michael Hayden 
posed a scenario of what he said, ``A Pakistani nuclear 
guarantee for the Kingdom of Saudi Arabia in the face of 
Iranian nuclear weapons programs.''
    Do you think that Pakistan would sell Saudi Arabia a 
nuclear weapon? What can you tell us about their nuclear 
cooperation? Where would other players in the region acquire 
the technology for it? We know that--we have heard reports that 
other countries in the region as well might be interested.
    And, Mr. Sampler, during a previous hearing with SIGAR and 
GAO, we discussed the fact that State and USAID were moving to 
give Afghanistan more and more in direct assistance, and this 
was despite warnings from these agencies that the Afghans were 
not remotely capable of handling the massive amounts of 
assistance and that the Afghan leaders lacked a system to 
manage the endemic corruption.
    Now, you testified that USAID has, with regard to direct 
assistance, ``put in place stringent measures to safeguard 
taxpayer funds.''
    And so I will ask you: Are these stringent measures the 
same recommendations that SIGAR recommended before USAID 
started providing direct assistance? And how much money are we 
providing in direct assistance in dollar amounts? And what is 
that in terms of percentages of what we are providing in total?
    Also, what steps have State Department and USAID taken to 
mitigate the risks of providing direct assistance that GAO and 
SIGAR highlighted?
    And, lastly, have State and USAID addressed all of the 
recommendations of these agencies? And which ones have yet to 
be recommended and why? Because I know it is a long list that 
they had.
    And, lastly, sir, Mr. Soiles, in your testimony, you 
describe the connection between drug trafficking and terrorist 
financing in and outside the country.
    Can you elaborate on the fact that 24 Afghan and 15 
Pakistani individuals have been designated by OFAC under the 
Kingpin Act. Will we see more of that? Less of that? Is that 
about average?
    And what does this tell us about the scope of drug 
trafficking in the region and the threat posed by the nexus 
between terror and drug trafficking?
    So, Mr. Blanc, we will begin with you. Thank you, sir.
    Mr. Blanc. Thank you, Madam Chair.
    It is, of course, true that Pakistan and Saudi Arabia have 
important and deep ties. I have seen no indication of the 
scenario that you have described. And we would----
    Ms. Ros-Lehtinen. You have seen what, now?
    Mr. Blanc. I have seen no indication of the----
    Ms. Ros-Lehtinen. No indication.
    Mr. Blanc. And we would look very negatively on any 
indication of proliferation of any kind, including that. 
Certainly a large part of our national security dialogue with 
Pakistan is focused on nonproliferation issues.
    Ms. Ros-Lehtinen. Did I select the wrong country? Would 
there be such collaboration between Pakistan and some other 
country or Saudi Arabia and some other country?
    Mr. Blanc. Ma'am, Saudi Arabia I couldn't speak to. But, 
no, we are not--we are not seeing ongoing proliferation 
concerns of that nature. And within the limits of what we can 
discuss here, I would just say that we are--nonproliferation is 
an important part of our dialogue with Pakistan.
    Ms. Ros-Lehtinen. So you feel fairly confident that, were 
these other countries to acquire the technology, the material, 
et cetera, it would not be provided by Pakistan?
    Mr. Blanc. We--I haven't seen indications of that scenario. 
And we are very focused in our dialogue with Pakistan on 
keeping them away from any kind of proliferation of that or any 
other nature.
    Ms. Ros-Lehtinen. And would you--was our intelligence good 
enough during the A.Q. Khan era that you would have also had 
indications that something was happening?
    Mr. Blanc. Ma'am, that was before my time in this office 
and, I imagine, probably something that we couldn't discuss in 
this forum in any case.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Sampler.
    Mr. Sampler. Yes, ma'am. I will try to address your 
questions in the order I remember them and, if I miss some, 
please--I will go back.
    With respect to on-budget support, we have about----
    Mr. Connolly. Mr. Sampler, could I just ask you to bring 
this closer to you. I am sorry.
    Mr. Sampler. Certainly.
    Mr. Connolly. The acoustics are not good here.
    Mr. Sampler. Certainly. Is this better?
    With respect to on-budget support, $2.4 billion of the $21 
billion that we have been appropriated has been shared with the 
Afghans to what we call on-budget support.
    I don't use the phrase ``direct support'' because, in 
development circles, that typically means money given carte 
blanche to a government, and we don't do that.
    On-budget support is a very specific mechanism that we use 
with a particular office or ministry, and it is very tightly 
controlled.
    So to answer your question, about 11 percent of the money 
that we have spent in Afghanistan has been spent in this on-
budget mechanism. It is a mechanism that, from a development 
perspective, we quite like because it builds government 
capacity.
    But it is one from a fiduciary accountability perspective 
that we don't trust because it means that we are putting more 
of our faith in the local government.
    So to the second point, then, of SIGAR's recommendations 
for how we account for and how we control this on-budget 
support, they made 18 recommendations, and I am--17 of the 18 
we either already were or are now implementing.
    Ms. Ros-Lehtinen. So out of the 18, 17 have already been 
put in place or will be put in place?
    Mr. Sampler. Have already been put in place.
    Ms. Ros-Lehtinen. Have already been put in place.
    Mr. Sampler. Yes, ma'am.
    And then with respect to the discussion about the----
    Ms. Ros-Lehtinen. What is that last one?
    Mr. Sampler. I don't know. I was afraid you would ask that, 
but I am happy to find out.
    Ms. Ros-Lehtinen. No. Don't worry about it.
    Mr. Sampler. With respect to the broader question of 
safeguards in these ministries, we don't give money to the 
Government of Afghanistan. We give money to particular 
ministries or offices. And we only do that after they meet a 
very exhaustive list of preconditions.
    And, in fact, we embed in that ministry what is typically 
called a grants and contract management unit, and these are 
people who work for us on our payroll, but are embedded in the 
ministry to oversee this ministry as they build their capacity.
    Ms. Ros-Lehtinen. Are they American citizens?
    Mr. Sampler. No, ma'am. Typically not.
    Ms. Ros-Lehtinen. Typically not.
    But they work----
    Mr. Sampler. They work for us and under our supervision.
    And they are qualified to international standards. If they 
are an accountant, they are an internationally certified 
accountant. If they are a bookkeeper, they meet international 
standards for bookkeeping. And they don't work for the 
ministry, but they work in the ministry alongside the 
ministerial team.
    Their roles are twofold. Primarily, they are there for our 
accountability. But, secondarily, they are there for mentoring 
and to help this Government as they build these institutions' 
capacity.
    I will stop there. And if there is something I missed, I am 
happy to go back.
    Ms. Ros-Lehtinen. No. Thank you so much.
    Mr. Soiles.
    Mr. Soiles. The OFAC Kingpin Designation Act, which was 
passed in 1999--since that time, we have had about 3,500 
designations on kingpins. And it is a drug--it is a Treasury 
action against drug traffickers--international drug 
traffickers.
    And, basically, what it does----
    Ms. Ros-Lehtinen. How many total did you say, sir?
    Mr. Soiles. Since 1999, 3,500.
    Ms. Ros-Lehtinen. But that is throughout the world?
    Mr. Soiles. Yes. Throughout the world. Throughout the 
world.
    And it is an interagency process that you--you appoint 
someone and it has to go through a review process in order to 
become OFAC or Kingpin.
    Obviously, when we first started the process in 1999, our 
threat was Colombia, Mexico, Western Hemisphere, and it is 
geared toward looking at--initially, it was geared at looking 
at traffickers out of that region, out of this--the Western 
Hemisphere. And a lot of their assets were in the United 
States. So, the process actually freezes their assets.
    As it went global because of the--how drugs became global, 
we have used it around the world. But, more importantly, by 
designating the Afghan-Pak, what we do is we use it with our 
foreign counterparts, our partners, to say, ``These people are 
drug traffickers. If they have assets in your country, you 
should be looking at it,'' and we can provide the assistance in 
order for them to freeze those assets. Okay. So that is the 
first part of your question.
    The second part of your question is the drug terror nexus 
and how does it work. As I stated earlier, 50 percent--
according to UNODC, 50 percent of the Taliban funding comes 
from drug trafficking.
    We have seen not only in Afghanistan, but in other areas of 
the world--the FARC down in Colombia and other places of the 
world, where the terrorist organization starts off basically 
taxing the farmers. That is what happened in Afghanistan. They 
taxed the farmers.
    But they have progressed beyond taxing the farmers. They 
provide security to the labs. They do transportation. They are 
involved in actual moving roles just like the FARC did, the 
FARC being one of the largest drug-trafficking organizations in 
the world. That is what has happened--what happened in 
Afghanistan.
    The real problem with all that, of course, you know, the 
terrorists have funding to do their operations. But in addition 
to that, a collateral bene--or problem comes where they use the 
money to corrupt various governments along the routes. And that 
we have seen, too. Forget the corruption in Afghanistan and 
Pakistan, but even in Central Asia. We have seen it in the 
Balkans. We have seen it in Africa.
    And all--a lot of these countries that are--experience the 
threat as the drugs move out of Afghanistan and through these 
territories are developing democracies. So they don't need 
another problem.
    So--and, ultimately, what happens is, if they corrupt the 
governments, then they have a weak--weak institutions and it 
gives the terrorist organization safe havens. And that is the 
real threat.
    Ms. Ros-Lehtinen. It is a real threat.
    Now, of these 24 and 15--24 Afghans, 15 Pakistani, is that 
the largest number that we have ever had? When were--when were 
those designated as kingpins? And how has the level of 
cooperation changed with the new Government in place in 
Afghanistan?
    Mr. Soiles. They are designated over time. As 
investigations are developed and we can identify our 
organization and a network, we designate them along the way. Of 
course, it is an interagency process and it takes time to do. 
So those are over time.
    Now, also, part of the process is, at some point, if they 
are not a threat, they get removed from the list. So--but the 
24 and 15 have been there for awhile. We are working with the 
Afghans on the targets. The Afghans have initiated a financial 
investigative team that we are mentoring, that we are working 
closely with together.
    The new President has--has stated openly and publicly that 
counternarcotics is a priority for his administration. He has 
taken steps. We have seen significant steps for him--showing 
that it is a priority for him, and we will continue working 
with the new--with the new administration.
    Ms. Ros-Lehtinen. Let's hope so. Thank you very much, 
gentlemen.
    Yes, Mr. Blanc.
    Mr. Blanc. Ma'am, if I could just add one thing to that, 
which is that, again, it is very early in President Ghani's 
administration.
    Mr. Connolly. Mr. Blanc, you have got to pull that closer 
to you, too, please.
    Mr. Blanc. Thank you.
    Mr. Connolly. Thank you.
    Mr. Blanc. It is very early in President Ghani's 
administration. But one of the things that he did in literally 
his first weeks of office was to remedy some failings in their 
anti-money laundering law in order to address concerns raised 
by the Financial Action Task Force, or FATF.
    And that, of course, relates to the counternarcotics issue. 
It relates to the counterterrorism issue. And I think it is--
again, it is an indication that this Government is taking very 
seriously some of our shared concerns.
    Ms. Ros-Lehtinen. Thank you very much.
    Thank you, gentlemen.
    And now my good friend, Mr. Connolly.
    Mr. Connolly. Madam Chairman, if I may, I would like to 
give my colleague from Maryland the opportunity to ask his 
questions if he--he is on a tight schedule.
    Ms. Ros-Lehtinen. Absolutely.
    Mr. Connolly. And then I would reclaim my time.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Connolly. Thank you.
    Ms. Ros-Lehtinen. Mr. Delaney is recognized.
    Mr. Delaney. I want to thank the gentleman from Virginia 
for giving me the opportunity.
    And I want to thank the chair and the ranking member for 
allowing me to sit in and participate in this important hearing 
about two countries that will obviously be very important for 
our national security for a long time.
    The reason I was particularly focused on sitting in on this 
hearing is because one of my constituents is a gentleman named 
Warren Weinstein, who was captured in Pakistan over 3\1/2\ 
years ago.
    And, as Mr. Sampler probably knows, he was a contractor for 
USAID at the time and has had a long career--he is 72 years old 
at this point. He has had a long career working for the Peace 
Corps and for USAID and for helping people around the world on 
behalf of our Government. And he has been over there for 3\1/2\ 
years now, and we know he is being held by al-Qaeda.
    And so my question for you, Mr. Blanc, is: In your opinion, 
is the Government of Pakistan, its civilian and military 
leadership, cooperating with us to the full extent possible in 
our efforts to try to secure Warren Weinstein's release back to 
the United States?
    Mr. Blanc. Thank you very much for that question, 
Congressman.
    Our hearts go out to Dr. Weinstein and to his family. I 
think it is a measure of the nihilism of his captors that they 
would hold somebody who is so dedicated to the welfare of the 
people of Pakistan.
    We are cooperating with the Government of Pakistan. The 
Government of Pakistan is cooperating with us in this 
investigation. As you know, there is a terrible kidnapping 
problem in Pakistan----
    Mr. Delaney. Yes.
    Mr. Blanc [continuing]. That affects Pakistanis as well.
    There is always more that we can do. There is always more 
that they can do. But, yes, we are cooperating.
    Mr. Delaney. But, in your opinion, are they--for example, 
if we want to interview individuals that they have detained as 
part of their police processes that are familiar with Mr. 
Weinstein's kidnapping, are we provided unfettered access, in 
your opinion, to these kind of resources?
    Mr. Blanc. We have been getting access in those cases. Yes, 
sir.
    Mr. Delaney. Are we conditioning various assistants we 
provide to the Government, whether it be civilian and defense 
assistants, on full and complete cooperation as it relates to 
not only Mr. Weinstein's situation, but, obviously, other 
hostages that may, unfortunately, be held in the region?
    Mr. Blanc. I think that we look at our assistance, both 
civilian and military, in Pakistan as, really, an investment 
that we are making in our own national security.
    So while we wouldn't--we don't and wouldn't want to 
specifically condition pockets for specific actions, we want to 
be able to look at that leverage and use it to best improve our 
relationship with Pakistan and the assistance they provide us.
    I think again, in this case, we really are getting 
cooperation out of them and--within the confines of their 
abilities because, again, they face a very serious problem of 
their own.
    Mr. Delaney. Right.
    And I understand how we can condition our aid on the 
release of hostages like Warren because they may--you know, at 
least their representations to us is they don't know where he 
is.
    And, as you have said, many--there is many even high-
ranking--children of high-ranking Government officials in the 
country who have been kidnapped.
    But it seems to me information that is completely under 
their Government's or military's or police control, there 
should be no hesitancy about providing us with complete and, as 
I said, unfettered access to that information.
    And I guess my question is: Why is it not a condition to 
the cooperation that we provide? Again, I understand why 
certain things can't be a condition because it is out of their 
control.
    But access to information, intelligence they may have about 
a specific American who is captured and left behind over there, 
it would seem to me that is the low-hanging fruit of things we 
can use our significant leverage to obtain.
    Mr. Blanc. And, again, I guess the most important answer I 
would give to this question is that we are cooperating with the 
Government of Pakistan and they are cooperating with us, 
including on access to detainees and other issues.
    Mr. Delaney. Just a separate question: Do you believe--you 
know, because we have a broader issue with respect to Americans 
that have been kidnapped in the region and, quite frankly, 
other parts of world.
    Do you believe the coordination--because the United States 
Government in a whole variety of ways provides assistance to 
countries all over the world and, in my opinion, why we have--
while we obviously have a policy against negotiating with 
terrorists for the release of Americans, which is a policy I 
obviously support, we have many partners around the world who 
can help us in finding and identifying and locating and 
securing the release of Americans.
    Do you think that we are coordinated enough as a Government 
and have made this a big enough priority? For example, should 
we have a hostage czar who is looking at every touchpoint that 
the United States has with partner nations around the world who 
might have information that are useful to us to get these 
people home? In your experience, what is your answer to that 
question?
    Mr. Blanc. Sir, I would be reluctant to comment on that 
particular proposal partially just because I haven't thought it 
through.
    I have been very involved in the hostage cases that we have 
addressed in Afghanistan and Pakistan, and what I would say is 
that they certainly--again, going back to the premise that we 
can always do more, these cases have received a tremendous 
amount of attention at the highest levels and I think have been 
the focus of creative diplomacy and thoughtful efforts to find 
the leverage that we can and use it to--to secure the freedom 
of these individuals.
    Mr. Delaney. With the chair's permission, one more 
question.
    Is there anything that this Congress can do to put in place 
a system so that the resources and leverage the United States 
Government has is used more fully to help identify--we will 
stay with Warren Weinstein, for example--to help find where he 
is and bring him home?
    Mr. Blanc. I am grateful for that question.
    I don't--it is not something I can pull off the top of my 
head. But, with your permission, I would like to take that back 
to our counterterrorism teams and come back to you with a 
considered answer.
    Mr. Delaney. Okay. Thank you.
    Ms. Ros-Lehtinen. Thank you so much for making such a 
valuable contribution to this debate. Thank you.
    Mr. Delaney. Thank you.
    Ms. Ros-Lehtinen. It is a terrible situation.
    Mr. Perry is recognized.
    Mr. Perry. Thank you, Madam Chair.
    Gentlemen, thank you for your time today.
    Mr. Blanc, the question will be related to you.
    But, first, you know, although December 8, 2014, marked the 
official end to the U.S. and NATO combat mission in 
Afghanistan, the violence and threats to U.S. interests in the 
region are certainly far from over.
    As a matter of fact, as I understand it, 2014 is the 
bloodiest year in Afghanistan since 2001 and, to date, the 
administration reportedly has not altered its post-2016 troop 
planning for Afghanistan, asserting that only successful Afghan 
governance can keep Afghanistan stable over the long term.
    Now, I am concerned that, similar to the power backing that 
allowed ISIL's rise in Iraq, the Taliban is waiting to reclaim 
lost territory and establish another safe haven for terrorists 
to thrive in Afghanistan.
    So, with that, is this administration willing to be 
flexible? And can you give any assertions in that regard with 
planned American troop levels in Afghanistan after 2016?
    Mr. Blanc. Congressman, thank you for the question.
    We are operating along the plan the President announced, 
which is precisely as you have outlined it, and our view is 
that that plan is working, that the Afghan National Security 
Forces, which hardly existed 6 years ago, have been in lead 
responsibility for the security of their country since June 
2013, and despite the extremely violent efforts of the Taliban 
insurgent groups against those forces, despite the need to 
protect two rounds of Presidential elections, despite the need 
to protect the loya jirga to confirm the BSA last year, the 
Afghan National Security Forces have held.
    And so what we think is necessary for our national security 
is to continue to fill in some of the gaps and needs that the 
Afghan National Security Forces have--that is the train, 
advise, assist mission--so that they can--they can continue to 
take the last bits of responsibility that we have essentially 
already given them over the course----
    Mr. Perry. But if there are setbacks in the successes that 
you have enumerated that requires a more robust effort, a 
little bit of a longer stay as opposed to a date-based 
withdrawal, is this administration--are you able to say now, 
without equivocation, that the administration is flexible 
enough to change its policy based on troop and basing levels?
    Mr. Blanc. You know, I think I can point to some 
flexibility that the administration is showing, for example, in 
moving from a 9,800-troop level for the end of this year to a 
10,800-troop level in response to specific requirements. And I 
think it is clear the President stays in very close touch with 
his commanders and will continue to do so.
    That said, I think everything that we see confirms our 
confidence in the plan that we are on to have a more normalized 
security relationship with Afghanistan with them leading the 
fight in their own country in 2017.
    Mr. Perry. With all due respect--and I hope you are right--
but from many Americans' views and certainly partially mine, 
that--the flexibility that we have seen recently in the 
administration is more borne out of events in Iraq than events 
and facts on the ground in Afghanistan.
    Be that as it may, the flexibility is there. But I would 
like to get some kind of confidence and an answer that says 
that that flexibility will remain regarding Afghanistan, 
specifically notwithstanding other events in the world that 
might politically make it more plausible, more agreeable, to do 
what needs to be done based on the facts.
    Let me ask you this: Post-2016, can you give us any 
indication of what metrics will be used to determine the size 
of a residual force?
    Mr. Blanc. Sir, I would have to defer that to the 
Department of Defense that has been working on plans for a 
security assistance office in Afghanistan.
    Mr. Perry. So does that mean that there will be no 
political component to assessing troop strength size in 
Afghanistan?
    Mr. Blanc. I think that, of course, there is a political 
component. The conflict is political. And so we will have a 
discussion about what the requirements are, which is 
essentially a political discussion.
    But in terms of planning for what the numbers would be and 
what that more normalized security relationship requires in 
terms of people to oversee assistance and other factors, I 
think there are--we have--we have planning experts, and DOD 
will be much better suited to answer those questions.
    Mr. Perry. I would agree with you.
    And I would just urge the State Department and the 
administration to take the advice of the military planners in 
this regard based on the facts as opposed to the political 
considerations, not the ones in Afghanistan as--or the ones in 
Afghanistan more than the ones in this country that--that might 
call for a hasty withdrawal based on the considerations of what 
somebody's campaign speeches might have been or political 
narrative might have been to secure the gains that many 
American lives and Treasury have spent to retain.
    Appreciate your time.
    And I yield back.
    Ms. Ros-Lehtinen. Excellent point. Thank you, Mr. Perry.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman, and welcome to our 
panel.
    Before I begin, Mr. Soiles, what part of New England are 
you from?
    Mr. Soiles. From Massachusetts.
    Mr. Connolly. Where?
    Mr. Soiles. Lowell, Mass.
    Mr. Connolly. Lowell. Oh, my God. All right. I had a 
primary opponent from Lowell.
    Mr. Soiles. I thought I lost the accent.
    Mr. Connolly. Oh. You lost the accent. He said 
``Colombier,'' he says ``oughta,'' and he thinks he lost the 
accent. But thank God you probably still root for the Red Sox.
    Mr. Soiles. Oh, absolutely.
    Mr. Connolly. God bless you. All right.
    Put my time back to 5, please.
    Ms. Ros-Lehtinen. Yes. Move it back.
    Mr. Connolly. Thank you, Madam Chairman.
    I want to ask about efficacy because I think, really, that 
is what all of us ought to be concerned about in Iraq and 
Afghanistan, holding in abeyance Pakistan.
    Mr. Blanc, for example, we spent apparently something like 
$61.5 billion in equipping, training, recruiting personnel for 
the Afghan National Security Forces.
    Would you say that investment has been a successful 
investment?
    Mr. Blanc. Sir, I think that the investment----
    Mr. Connolly. You need to speak directly into the mic. The 
acoustics in this room are really among the worst. I am sorry.
    Mr. Blanc. I am very sorry, sir.
    Mr. Connolly. That is all right. That is great.
    Mr. Blanc. I would say that our investment in the Afghan 
National Security Force is paying off and that, in particular, 
the investment that we have made really since 2008, 2009 is 
paying off, that, from a point, you know, at the beginning of 
this administration, where there hardly was an Afghan National 
Security Force, we are now at a point where, since June 2013, 
they have been in the lead in providing security across the 
country through some very difficult months and through some 
very challenging periods, including two rounds of Presidential 
elections.
    Mr. Connolly. Would you say they are equipping themselves 
well against, for example, the Taliban?
    Mr. Blanc. Yes, sir.
    Mr. Connolly. And maybe we could agree, maybe not, in sharp 
contradistinction with the Iraqi Armed Forces that melted away 
in the face of ISIS.
    Mr. Blanc. Sir, I haven't been to Iraq since 2005. And so I 
want to stay away from comparisons in which I am not an expert. 
But I will say----
    Mr. Connolly. Well, I am not an expert either, but I can 
read a newspaper. I can see the television.
    I do understand that ISIS is now one of the best-equipped, 
best-financed terrorist groups on the planet because precisely 
of the comprehensive collapse of the Iraqi Armed Forces in the 
face of a military threat. And we paid for it.
    We--remember history. We rebuilt the Iraqi military after 
Paul Bremmer took it apart. God knoweth why, but he did. So we 
rebuilt it to the tune of tens of billions of dollars.
    Surely you could agree, based on what you know, not being 
an expert, and what I know, not being an expert, that that is 
hardly a success model.
    Mr. Blanc. My colleagues in the Bureau of Near Eastern 
Affairs would probably be unhappy with me if I wade deeply into 
this.
    What I will say is--as I said in response to Mr. DeSantis 
earlier, is that, from my experience in both Afghanistan and 
Iraq and having spent a couple of years in both, I think that 
the comparisons between the two are overdrawn and--and I think 
that the nature of the security forces is one place where the 
comparisons are overdrawn.
    I certainly believe that the Afghan National Security 
Forces, having taken lead responsibility for security in their 
country in June 2013, have weathered a predictable, but very 
violent, storm and deserve a tremendous amount of praise and 
credit for that.
    There are still areas where they need our support, and that 
is what the train, advise, assist mission is about. I think 
that, if we can finish that mission, we will redeem the 
investment that you have described and leave behind a security 
force that is able to secure its country and, therefore, 
provide critical security for the region in the world without 
our combat mission.
    Mr. Connolly. I hope you are right.
    But, again, I began by saying my questions of all three of 
you are going to be about efficacy. And they are not--they are 
hard questions and they are not easy answers and, you know--but 
I think we, as a country, have to ask ourselves this. Was the 
investment--did it pay off? And when it doesn't, we have to be 
honest with each other that it didn't--it didn't work.
    And maybe you are right that, with the military in 
Afghanistan, in contradistinction to a nearby place that you 
are not an expert on and I am not either, it is working. I hope 
you are right. I sure hope that $61 billion--it is working.
    Mr. Blanc. And I want to let Larry make a very compelling 
case he is going to make about the tremendous gains that we 
have seen in Afghanistan from the civilian assistance.
    Mr. Connolly. The what?
    Mr. Blanc. Tremendous gains we have seen in Afghanistan as 
a result of our civilian assistance.
    But before--before he does, I just want to underscore that 
one of the things that is unique about our engagement in 
Afghanistan is that the planning for 9/11 took place in 
Afghanistan. We are engaged there because there was a threat 
from there, and our continued engagement there is inexorably 
linked with our national security.
    Mr. Connolly. I am well aware of that. But we, of course, 
took our eye off the ball to invade Iraq that had nothing to do 
with 9/11. I am very well--very aware of the history.
    Mr. Blanc. But on Afghanistan and the focus that I believe 
we have brought to Afghanistan since 2009, I think that 
standing up their security forces so that they can take over 
from us and be a provider rather than a consumer of 
international security--I think it is--we are on the right 
track and we are seeing signs of success.
    Mr. Connolly. All right. Well, we will hold you to it.
    Before you answer a question you haven't been asked, let me 
ask you a question and then you can answer, including Mr. 
Blanc's lead in.
    We had a hearing in June, this subcommittee, and we heard 
from Mr. Sopko, the SIGAR, and we heard from Mr. Johnson from 
GAO. And they actually testified they could not provide metrics 
for the percentage of funds that were well spent or wasted 
because--in Afghanistan because the raw numbers did not exist.
    Is it your testimony that they are wrong, that, as a matter 
of fact, you have got metrics and you have got numbers that 
would demonstrate the efficacy of the domestic investments we 
have made in reconstruction and relief and civil engagement in 
Afghanistan?
    Mr. Sampler.
    Mr. Sampler. Congressman, it absolutely is. As the question 
is asked, it is a very simple answer.
    We do have metrics for success. And I can start with a very 
concrete and appreciable on the ground kind of metrics all the 
way up to more strategic what we call developmental objectives 
that we are pursuing.
    So I will answer that question first and then, with your 
permission, I will address Jarrett's question as well.
    In Afghanistan, for example, with respect to health care--
--
    Mr. Connolly. If I may just for a second, Mr. Sampler.
    If the chair will indulge us, this is, I think, the last 
hearing of the----
    Ms. Ros-Lehtinen. Sure.
    Mr. Connolly [continuing]. Of this Congress. At least I 
hope it is my last hearing of this Congress. And so if she will 
indulge us to allow Mr. Sampler to----
    Ms. Ros-Lehtinen. Please go right ahead. Thank you. Thank 
you, Mr. Connolly.
    Mr. Connolly. I thank you, Madam Chair.
    Mr. Sampler. I will be brief and I will let you ask 
followups, if you wish.
    But with respect to health care, for example, an area in 
Afghanistan that is often raised and criticized because of the 
amounts of money invested, our efforts have helped raise the 
average life expectancy by 22 years in Afghanistan. So Afghans 
who would have died as they had children in elementary school 
can now live to see grandchildren.
    Mr. Connolly. Good metric.
    But, Mr. Sampler, do you directly take issue with the 
testimony of the SIGAR that says, ``I can't tell you how much 
money was wasted and I can't tell you how much money was well 
spent because we don't have the raw numbers in Afghanistan''? 
That was his testimony. And remember what his charge is. So be 
careful here.
    Are you taking direct issue with the SIGAR?
    Mr. Sampler. I have in the past. And I will. We certainly 
have the numbers, and we share all our data with SIGAR. If 
there are particular issues that he would like to explore, we 
are happy to share the information that we have.
    There are times when the special Inspector General takes a 
different view of success than we do or he takes a different 
view of the risk of particular programs we are pursuing than we 
do. But we don't do programs that don't have metrics.
    That is not something that I would come before Congress and 
defend or go before my boss, Dr. Shah, and defend. We do have 
metrics on all of our programs. And if--if we have been remiss 
in not sharing our numbers broadly enough, I am happy to 
address that.
    If you would allow me to address----
    Mr. Connolly. Well, I would just say--and I know you want 
to go on, and I welcome it.
    I would just say to you there is a profound difference 
between your testimony right here and now and what we heard in 
June--profound--and one is true or the other is true. They 
can't both be true.
    I take your point that we have metrics, but some metrics 
are meaningless and some metrics are meaningful and--but he 
claims--and so did GAO, by the way; he backed it up--that, 
``Sorry. We don't have those. We can't have metrics. We can't 
even establish metrics. That is how bad it is. We can't account 
for billions of dollars in economic assistance to 
Afghanistan.''
    And you are here testifying that is not true, and you are 
wearing your AID hat asserting that. Is that correct?
    Mr. Sampler. Congressman, I don't know the context under 
which they said that, but I will stand behind my assertion that 
we have metrics for the programs we perform in Afghanistan.
    Mr. Connolly. All right. You wanted to----
    Mr. Sampler. Very briefly.
    Several of the members raised the issue that 2014 has been 
the most violent year in Afghanistan of the last 5, and that is 
actually certainly true. Our numbers show attacks up 83 percent 
over the average of the previous 5 years. But I wanted to give 
you a customer's perspective of security in Afghanistan.
    In the last 15 days, there were about 10 or 12 attacks just 
in the greater Kabul area alone. And I called some of my 
partners working on the ground in Afghanistan to make sure that 
they were--that they had what they needed to assure their own 
safety, and the partners made the following observation.
    They said that the Government of Afghanistan doesn't 
control the number of incidents of violence that occur. The 
Taliban has a vote in that regard. And so they recognize that 
the number of incidents may not be immediately something the 
government can manage.
    But two different partners spoke very highly of the 
professionalism of the police who had responded to attacks on 
their compounds and who had dealt with their Afghan staff and 
their international staff in what they described as a very 
competent and a very professional way.
    So I would just propose for your consideration that, as we 
evaluate the Government of Afghanistan's ability to secure its 
population, we focus on their response to violent incidents 
more right now than on their ability to prevent them.
    Preventing violence is maybe a graduate-level task that we 
expect them to eventually achieve, but right now I am thrilled 
to see, given my 12 years in Afghanistan, that the police in 
Afghanistan are someone someone--that they are partners welcome 
into their compounds as opposed to refuse to deal with.
    Mr. Connolly. Thank you, Mr. Sampler. We will explore this 
in more depth. Thank you.
    My final question, with the indulgence of the chair, has to 
do with the DEA and drugs.
    Mr. Soiles, in the time we have been in Afghanistan, given 
our commitment to fighting poppy production and narcotics 
trafficking and cross-border transshipment of illicit drugs to 
Iran, what has happened in that time period is, I believe, 
Afghanistan is now the world's number 1 heroin-producing 
country and Iran is now the number 1 heroin addict-consuming 
country, despite us spending $7.8 billion in counternarcotics 
funding.
    How--again, the efficacy question. So we feel pretty good 
about our investment and the payoff?
    Mr. Soiles. The DEA part of that--the DEA part of that is a 
very small budget. I mean, our vetted teams there that we have 
that we have trained--we have 77 vetted members.
    We have what we call the National Interdiction Unit, which 
is our kind of SWAT team types that go out and project out with 
our FAST teams into--outside of Kabul that--that is only about 
530 members.
    And then we have what we call the Technical Investigative 
Unit, which is our intercept program that we have there in 
order to go after the command-and-control structures of 
organizations.
    You have to be able to intercept their communications. To 
intercept their communications, you need a--we have a judicial 
process in Afghanistan that we helped build and, as a result, 
we use that as evidence.
    Those units have been very effective. We--we stood up 
this--the counternarcotics police of Afghanistan from scratch 
along with our partners from State and our partners from DOD. 
We have trainer training programs, and now they are training--
--
    Mr. Connolly. Mr. Soiles. Mr. Soiles. You are representing 
the United States Government here, too. I mean, yes, you are 
DEA and Mr. Blanc is State Department, where we have a 
narcotics matters bureau. Presumably, you are coordinating with 
all of the U.S. entities in a coordinated anti--you know, 
counternarcotic strategy for Afghanistan.
    When I was in Afghanistan, I remember getting briefed by 
DEA and State Department and the Embassy and so forth in Kabul 
about what we were planning and what we were doing and the 
interdiction and all that good stuff.
    But the fact of the matter is, I think, the narcotics 
trade--well, poppy production has grown, not decreased, and the 
narcotics trade has grown, not decreased, both in volume and in 
value.
    So don't we have to ask ourselves that--you know, what--do 
we need to do something different. Because it doesn't seem to 
have worked.
    And it is hardly like the United States didn't have a 
footprint in Afghanistan. I mean, the longest war in our 
history was in Afghanistan.
    Mr. Soiles. True. Bottom line is we do. We ask that 
question every day.
    Mr. Connolly. And are we satisfied with the answer?
    Mr. Soiles. We don't see an alternative other than to 
continue building the capabilities of the Afghans for them to 
have a sustainable ability to solve their own problem, and that 
is what we do.
    Mr. Connolly. Do you believe the current Afghan Government 
is committed to ``solving their own problem'' with respect to 
narcotics?
    Mr. Soiles. I think the former government had a big issue 
of--not the guys--not the people that we work with, quite 
honestly, the rank and file counternarcotics police officers 
that we deal with, but I think there was some significant lack 
of political will from the former administration. With Ashraf 
Ghani in, the new President, when are hopeful.
    Mr. Connolly. All right.
    Thank you, Madam Chairman. I am not sure I am satisfied 
with the answers about efficacy, but I am glad we had the 
hearing to explore it.
    Ms. Ros-Lehtinen. It is a good theme.
    Mr. Connolly. Thank you.
    Ms. Ros-Lehtinen. And I am glad that we had the hearing as 
well. I am glad that we had all of the hearings this session.
    We thank you gentlemen for your service to our country. We 
know that this is a very troubling situation, the way forward 
in Afghanistan and Pakistan. We could be at this all day and 
all night and not come up with the answers, but we thank you 
for what you are doing for our country.
    Thank you. And with that, the subcommittee is adjourned.
    [Whereupon, at 4:26 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
